U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 10, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Unity HealthCare v. Azar, No. 19-68
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 10,
2019, and placed on the docket on July 12, 2019. The response of the United States is now due,
after one extension, on September 11, 2019. We respectfully request, under Rule 30.4 of the
Rules of this Court, a further extension of time to and including October 11, 2019, within which
to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0068
UNITY HEALTHCARE
ALEX M. AZAR, II, SEC. OF HEALTH & HUMAN
SERVICES

JONATHAN BIRAN
BAKER, DONELSON, BEARMAN, CALDWELL
& BERKOWITZ, PC
100 LIGHT STREET
BALTIMORE, MD 21202
410-685-1120
JBIRAN@BAKERDONELSON.COM

